APPENDIX

1a

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________________________
No. 18-12256
Non-Argument Calendar
__________________________________
D.C. Docket No. 7:07-cr-00030-HL-TQL-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
FERRELL WALKER,
Defendant-Appellant.
No. 18-15283
Non-Argument Calendar
D.C. Docket No. 7:17-cr-00034-HL-TQL-1
UNITED STATES OF AMERICA,

2a

Plaintiff-Appellee,
versus
FERRELL WALKER,
Defendant-Appellant.

Appeals from the United States District Court
for the Middle District of Georgia
(March 10, 2021)
Before MARTIN, ROSENBAUM, and BRANCH,
Circuit Judges.PER CURIAM:
Ferrell Walker was convicted for possessing child
pornography in 2007. After he violated the conditions
of his supervised release by possessing child
pornography in 2017, his supervision was terminated
and he was sentenced to 60 months’ imprisonment. He
was also later tried and convicted for possessing that
same child pornography. In this consolidated appeal,
Walker challenges both his sentence for violating the
conditions of his supervised release and his criminal
conviction. Walker argues that the revocation
sentence is unconstitutional and the government
agrees.
As to his criminal conviction, Walker raises four
arguments. First, he argues that his prosecution for

3a

the same conduct that led to the revocation of his
supervised release violates the Double Jeopardy
Clause. Second, he says there was insufficient
evidence to support his conviction for possession of
child pornography. Third, he says the district court
abused its discretion in requiring that his two
sentences run consecutively. And finally, he says the
district court improperlyadmitted evidence of his prior
offense.
We are unpersuaded by Walker’s challenges to his
criminal prosecution and therefore affirm his
conviction and sentence. But we agree that Walker’s
revocation sentence violated the Ex Post Facto Clause
and therefore vacate the sentence imposed for his
supervised release violation and remand for further
proceedings consistent with this opinion.
I.
In 2007, Walker pled guilty to possession of child
pornography in violationof 18 U.S.C. § 2252(a)(4)(B).
Walker accessed this pornography digitally, on a
personal computer in 2005. His sentence for that
conviction included a 25-year term of supervised
release, which he began serving in May 2014.
In September 2017, the government searched
Walker’s home and found a cellphone in his bedroom,
inside a pillow case on his bed. Over one thousand
child pornography images were found on the
cellphone. The phone also contained a photograph of
Walker’s driver license and a nude photograph that

4a

Walker had taken of himself. The cellphone included
a sexually explicit “chat” from a messaging
application in which the user of the phone sent a photo
of Walker’s faceand of male genitalia.
In November 2017, Walker was arrested on a
warrant for violations of his conditions of supervision.
That same month, a grand jury charged Walker with
possession of child pornography in violation of 18
U.S.C. § 2252(a)(4)(B), based on those materials the
government found on his cellphone that September.
In May 2018, the district court conducted a
supervision revocation hearing. The government
presented evidence about the child pornography it
found on Walker’s cellphone as well as the evidence
linking the phone to Walker. Walker testified that he
owned more than one cellphone and that the cellphone
discovered in his pillow case was used by multiple
people. He denied accessing or viewing any child
pornography on the phone.
The district court found by a preponderance of the
evidence that Walker violated a number of conditions
of his supervision, including by possession of child
pornography. Pursuant to 18 U.S.C. § 3583(k), the
district court sentenced Walker to a mandatory
minimum term of 60 months’ imprisonment. Walker
objected to the district court’s reliance on § 3583(k).
He argued that since the child pornography offense
underlying his term of supervision occurred before §
3583(k) was enacted, reliance upon it in sentencing
him violated the Ex Post Facto Clause of the
Constitution.

5a

In July 2018, Walker was tried before a jury on the
2017 incident of possession of child pornography.
Over two days, the jury heard testimony about the
cellphone the government found at Walker’s home,
including that it contained child pornography. The
jury heard evidence indicating that Walker personally
accessed the phone. The evidence also included
testimony that Walker admitted toa law enforcement
officer that he used this phone to search for
pornography featuring teens. The government
admitted evidence of Walker’s 2007 conviction for
possession of child pornography as well.
But Walker also presented evidence that someone
other than he may have used the phone to access child
pornography. During cross-examination, government
witnesses conceded that the cellphone had not been
fingerprinted and that it was not password protected.
Walker testified there were several people whowere
doing construction on his home at the time who
regularly used the phone to access social media
websites and pornography, and to sell items online.
But Walker again testified he did not know there was
any child pornography on the phone and denied using
the phone to view child pornography.
The jury nevertheless convicted Walker of
possession of child pornography. The district court
sentenced Walker to 168 months’ imprisonment, to
run consecutively to his revocation sentence. Walker
timely appealed both his revocation judgment and his
2018 conviction and sentence.

6a

II.
A. Walker’s revocation sentence violates the Ex
Post Facto Clause.
We review de novo whether a conviction or sentence
violates the Ex Post Facto Clause. United States v.
Futrell, 209 F.3d 1286, 1289 (11th Cir. 2000) (per
curiam). That clause prohibits the government from
retroactively applying a law that “imposes additional
punishment” for a crime than was provided for at the
time the crime was committed. United States v.
W.B.H., 664 F.3d 848, 852 (11th Cir. 2011) (quotation
marks omitted). The retroactive application of a law
that “raises the penalty” for violating conditions of
supervised release violates the Ex Post Facto Clause.
Johnson v. United States, 529 U.S. 694, 699–701, 120
S. Ct. 1795, 1800–1801 (2000).
The conduct that led to Walker’s first child
pornography conviction occurredin 2005. At that time,
the maximum sentence that could be imposed on
Walker upon revocation of supervised release was two
years. 18 U.S.C. § 3583(e)(3) (2003).1 One year later,
Congress enacted the new provision that prescribed a
mandatory minimum five years’ imprisonment for

Walker’s conviction was classified as a class C felony as it
carried a maximum punishment of between 10 and 25 years of
imprisonment. See 18 U.S.C. § 3559(a)(3) (2004); 18 U.S.C. §
2252 (b)(2) (2003).

1

7a

people who are required to register as a sex offender
and who then commit one of a subset of offenses,
including possession of child pornography. Adam
Walsh Child Protection and Safety Act of 2006 (“Adam
Walsh Act”), Pub. L. No. 109-248, § 141(e)(2), 120 Stat.
587, 603 (codified at 18 U.S.C. § 3583(k)). When
Walker’s supervised release was revoked in 2017, the
district court sentenced him to the mandatory
minimum 60 months’ imprisonment prescribed by the
Adam Walsh Act. Yet, the conduct that triggered
Walker’s eligibility for sentencing under 18 U.S.C. §
3583(k) occurred before the Adam Walsh Act was
enacted and Walker was subjectto a lower penalty at
that time. Therefore, as the government now
concedes, his revocation sentence violated the Ex Post
Facto Clause. See W.B.H., 664 F.3d at 852. We
therefore vacate Walker’s revocation sentence and
remand for further proceedings consistent with this
opinion.2
B. Walker does not show plain error in his 2018
conviction for the same conduct that resulted in
revocation of his supervised release.

Because we are vacating Walker’s sentence on Ex Post Facto
grounds, we need not address his other constitutional challenge
to that sentence. And while we are aware that United
States Sentencing Guideline § 7B1.3(f) calls for serving a
sentence for supervised release violations consecutive to
a term of imprisonment a defendant is serving, we do not
address Walker’s argument on this topic because we will not
pass on a sentence that has not yet been imposed.

2

8a

Walker argues that because he had already been
sentenced to a term of imprisonment for his 2017 child
pornography possession when his supervision was
revoked, his subsequent prosecution for that same
conduct violated the Double Jeopardy Clause.
Ordinarily, we review de novo double jeopardy claims.
United States v. Campo, 840 F.3d 1249, 1267 (11th
Cir. 2016). But when, as here, the defendant raises a
double jeopardy claim for the first time on appeal, we
review only for plain error. Id. To succeed on plain
error review, a defendant must show an “error that is
plain; that affects substantial rights; and that
seriously affects the fairness, integrity, or public
reputation of judicial proceedings.” United States v.
Holt, 777 F.3d 1234, 1261 (11th Cir. 2015) (quotation
marks omitted). “A plain error is an error that is
obvious and is clear under current law,” which means
that there “can be no plain error where there is no
precedent from the Supreme Court or this Court
directly resolving it.” United States v. Lange, 862
F.3d 1290, 1296 (11th Cir. 2017) (quotation marks
omitted).
Ordinarily, a sentence resulting from the
revocation of supervised release does not raise double
jeopardy issues. That is because the revocation is
considered punishment for the original offense
conduct, not whatever conduct led to the revocation.
See Johnson, 529 U.S. at 701, 120 S. Ct. at 1801
(attributing “postrevocation penalties to the original
conviction.”).

9a

However, revocation penalties imposed pursuant to
18 U.S.C. § 3583(k)may indeed raise double jeopardy
concerns. In United States v. Haymond, 588 U.S. ,
139 S. Ct. 2369 (2019), a fractured Supreme Court
determined that imposing a sentence under 18 U.S.C.
§ 3583(k) without empaneling a jury violated a
defendant’s right to a jury trial. Id. at 2378–79, id. at
2386 (Breyer, J., concurring). In his controlling
concurrence,3 Justice Breyer explained that this
provision operates “less like ordinary revocation and
more like punishment for a new offense, to which the
jury right would typically attach.” Id. at 2386 (Breyer,
J., concurring). He pointed to three aspects of the
provision that informed his conclusion:
First, § 3583(k) applies only when a
defendant commits a discrete set of

“When a fragmented Court decides a case and no single
rationale explaining the result enjoys the assent of five
Justices, the holding of the Court may be viewed as the
position taken by those Members who concurred in the
judgments on the narrowest grounds.” Marks v. United
States, 430 U.S. 188, 193, 97 S. Ct. 990, 993 (1977) (quotation
marks omitted). Justice Breyer’s concurrence is narrower
than the plurality opinion because he does not “transplant
the Apprendi line of cases to the supervised-release context.”
Haymond, 139 S. Ct. at 2385 (Breyer, J., concurring). His
concurrence is therefore controlling. See also United States
v. Savarese, F. App’x , 2021 WL 194147, at *3 (11th Cir.
Jan. 20, 2021) (unpublished) (noting that Justice Breyer’s
concurrence in Haymond is “binding”).
3

10a

federal criminal offenses specified in the
statute. Second, § 3583(k) takes away
the judge’s discretion to decide whether
violation of a condition of supervised
release should result in imprisonment
and for how long. Third, § 3583(k) limits
the judge’s discretion in a particular
manner: by imposing a mandatory
minimum term of imprisonment of “not
less than 5 years”upon a judge’s finding
that a defendant has “committed any”
listed “criminal offense.”
Id. (alteration adopted). For these reasons, Justice
Breyer concluded that § 3583(k) “more closely
resemble[s] the punishment of new criminal offenses,
but without granting a defendant the rights . . . that
attend a new criminal prosecution.” Id. He therefore
joined the plurality in finding § 3583(k)
unconstitutional as applied. Id.
Walker argues that the same aspects of § 3583(k)
that make it similar to punishment for a new criminal
offense for the purposes of the right to a jury trialmake
it similar to punishment for a new criminal offense for
the purposes of the Double Jeopardy Clause. We note
that the Tenth Circuit, in the opinion that the
Supreme Court took up in Haymond, noted that §
3583(k) may raise double jeopardy concerns for the
very reasons Walker raises. United States v.
Haymond, 869 F.3d 1153, 1165 (10th Cir. 2017),
vacated by 588 U.S.
, 139 S. Ct. 2369 (2019).

11a

Walker’s problem is that he has failed to show a
double jeopardy violation that constitutes plain error.
In this circuit, for error to be “plain” there must be
“precedent from the Supreme Court or this Court
directly resolving it.” Lange, 862 F.3d at 1296
(quotation marks omitted). Neither the plurality
opinion nor Justice Breyer’s controlling concurrence in
Haymond even mentions the potential double
jeopardy implications of their reasoning. See
generally Haymond, 139 S. Ct. at 2371–86. While the
reasoning of Justice Breyer’s concurrence may
support Walker’s argument, Haymond does not
directly resolve the double jeopardy question.
Therefore, any error on this issue is not plain and we
cannot find anydouble jeopardy violation in this case.
C. Sufficient evidence supported Walker’s 2018
conviction for possessing childpornography.
We review de novo a challenge to the sufficiency of
the evidence. United States v. Moran, 778 F.3d 942,
958 (11th Cir. 2015). If, after reviewing the evidence
“in the light most favorable to the government” we
find that “any rationaltrier of fact could have reached
a verdict of guilty,” we must affirm the verdict. United
States v. Wetherald, 636 F.3d 1315, 1320 (11th Cir.
2011). When we review the sufficiency of the
evidence, we do not usurp the jury’s role in resolving
conflicts in testimony, weighing the evidence, or
drawing reasonable inferences. Musacchio v. United
States, 577 U.S.
, 136 S. Ct. 709, 715 (2016).

12a

In order to prove a defendant possessed child
pornography in violation of 18 U.S.C. § 2252(a)(4)(B),
the government must show, beyond a reasonable
doubt, that a defendant “knowingly” possessed or
accessed the material at issue. Walker argues that the
government failed to present sufficient evidence that
he “knowingly” possessed the child pornography it
found on the cellphone in his home. He points out that
the phone was not password protected, that many
peopleused the phone, and that the government did
not present any direct evidence as to who downloaded
the child pornography onto the phone.
In fact, the government presented ample evidence
that Walker used the phone. It contained a photo of
his driver license and a nude photograph Walker had
taken of himself. The cellphone also included a
sexually explicit “chat” from a messaging application
in which the user of the cellphone sent a photo of
Walker’s face and of male genitalia. The phone was
found in a pillowcase in the bedroom ofWalker’s home.
And Walker admitted to using the phone to search for
pornography that featured teens. The government
also introduced evidence that there were “numerous”
images of child pornography on the phone. Given the
volume of child pornography on the phone and the
numerous pieces of evidence establishing that Walker
used the phone, it was reasonable for the jury to find
that Walker knew there was child pornography on the
phone that he possessed. We therefore reject Walker’s
sufficiency of the evidence challenge to his conviction.

13a

D. The district court did not abuse its discretion in
admitting evidence of Walker’s 2007 conviction.
We review the district court’s evidentiary rulings
for abuse of discretion. United States v. Woods, 684
F.3d 1045, 1062 n.17 (11th Cir. 2012) (per curiam).
Walker says the introduction of evidence of his 2007
conviction violated Federal Rule of Evidence 404(b).
That rule prohibits the admission of “evidence of other
crimes” unless the government can demonstrate “(1) a
proper purpose for introducing the evidence; (2) that
the prior act occurred and that the defendant wasthe
actor; and (3) that the probative value of introducing
the evidence outweighs any prejudicial effect the
evidence might have.” United States v. Cancelliere,
69 F.3d 1116, 1124 (11th Cir. 1995) (quotation marks
omitted and alteration adopted). One proper purpose
is to prove “knowledge . . . or absence of mistake.” Id.
(quotation marks omitted).
Walker says the government did not have a proper
purpose in introducingevidence of his 2007 conviction
because he did not raise an accident or mistake
defense. But the prior conviction was still relevant to
whether Walker had “knowingly” possessed or
accessed the material at issue. 18 U.S.C. §
2252(a)(4)(B). Walker put this question into issue by
disclaiming any knowledge there was child
pornography on the phone found in his home. The fact
that Walker had previously accessed and possessed a
significant amount of digital child pornography
undermined the plausibility of his testimony that he
was unaware that the cellphone at issue in 2018

14a

contained a significant amount of digital child
pornography.
Walker also says the 2007 conviction was more
prejudicial than probative and therefore failed on the
third prong of admissibility under Rule 404(b). See
Cancelliere, 69 F.3d at 1124. But we see no abuse of
discretion in the district court’s decision to admit the
evidence. The prior offense was very similar to the one
for which he was standing trial and Walker’s entire
defense was to dispute the government’s evidence
of the knowledge requirement of 18 U.S.C.
§ 2252(a)(4)(B). The fact that he had a history
of accessing child pornography through digital
means tended to rebut that defense.
Therefore, we VACATE Walker’s conviction
Walker’s [sic] revocation sentence and REMAND for
further proceedings consistent with this opinion, and
we AFFIRM his 2018 conviction and sentence.

15a

APPENDIXB
Case: 18-12256 Date Filed: 09/04/2018 Page:21 of 149
Case 7:07-cr-00030-HL-TQL Document 15
Filed 11/27/07 Page 1 of 6
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF GEORGIA,
VALDOSTA DIVISION
UNITED STATES OF JUDGMENT IN A
CRIMINAL CASE
AMERICA
Case Number
V.
7·07-CR-00030-001-HI3
.
j
FERRELL WALKER
USM Number 93414-020

Ll: Q

THE DEFENDANT

[X]

0

John G. Edwards
Defendant's Attorney

pleaded guilty to count(s) 1.

nolo contendere to count(s) which was
□ pleaded
accepted by the court.

D

was found guilty on count(s) after a plea of not
guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section Nature of Offense Offense Ended
Possession of
06/10/2005
18 U.S.C.
Count
§ 2252(a)(4)(B) Child
1
Pornography
The defendant is sentenced as provided in the
following pages of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984.
The defendant has been found guilty on count(s)
Count(s) dismissed on the motion of the United
States.

D

16a

17a

18a

19a

20a

21a

22a

23a

24a

25a

26a

27a

28a

29a

30a

31a

32a

33a

34a

35a

36a

37a

38a

39a

40a

41a

42a

43a

44a

